U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

October 9, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
James W. Richards, IV v. Matthew P. Donovan, Acting Secretary of the Air Force
No. 19-55
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 8, 2019,
and placed on the Court's docket on July 10, 2019. The government's response is currently due,
on one extension, on October 15, 2019.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including November 21, 2019, within which to file the government's response. This
extension is necessary because the attorneys with principal responsibility for final preparation of
the government's response have been heavily engaged with the press of other matters before the
Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-0055
RICHARDS, JAMES W., IV
MATTHEW P. DONOVAN, ACT[NG SEC. OF THE
AIR FORCE, ET AL.

MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4782
MARK.C.BRUEGGER.CIV@MAIL.MIL

